                                         1
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                             1




Case Number: 1-08090048                                                                     Page 1 of 1



         This investigation was initiated in response to an allegation of mismanaged grant funds at a
         university1 involving an NSF award2.

         We received and reviewed financial information from the grantee institution to determine the
         appropriateness of grant expenditures. The general ledger for the award showed a lack of support
         for a significant amount of the drawn down funds. However, an additional request for
         information explained that an accounting system error had caused the information provided in
         our preliminary request to be incomplete, and an updated ledger provided sufficient support. No
         evidence of mismanaged grant funds was found.

         Accordingly, this case is closed.




         -
NSF OIG Form 2 (1 1/02)
